fan
CAS

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-1066
ASHLYN HOGGARD,
Petitioner,
v.
RON RHODES, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE SOUTHEASTERN LEGAL FOUNDATION IN SUPPORT OF PETITIONER in the

above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being

prepared in New Century Schoolbook 12 point for the text and 10 point for the footriotes, and this

brief contains 2397 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 4th day of March, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
! RENEE J. GOSS 9
My Comm. Exp. September 5, 2023 ‘

Notary Public

      

Oudeawh. Chk

40697
